fo
I

OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs ;

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

DANIEL Z. CROWE; LAWRENCE K. PETERSON;
and OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Petitioners,

Vv.

OREGON STATE BAR, a Public Corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7235 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of May, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fen cmc, | NOTARY-State of Hebraska wv 2 b s,
RENEE J. fen cmc, | ¢ dudraw- ‘

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40964
